<html>
<title> - Ukraine’s Pivotal Parliamentary Poll</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


113th Congress 				Printed for the use of the 			
2d Session				Commission on Security and Cooperation in Europe
__________________________________________________________________________________________                                            
.                                            
  

                     UKRAINE'S PIVOTAL PARLIAMENTARY POLL


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                           NOVEMBER 14, 2014


                            Briefing of the
            Commission on Security and Cooperation in Europe

____________________________________________________________________________________________
                           Washington: 2015
                                     

            
            
            
            
            
            
            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0360706066436e626a6f2d6b6c7670662d646c75">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners
                      
                      
                      
                      

                                                            
                 SENATE					HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,			CHRISTOPHER SMITH, New Jersey,
  Chairman					 Co-Chairman
        
 SHELDON WHITEHOUSE, Rhode Island		JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico				ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire			PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut			MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi			ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia			LOUISE McINTOSH SLAUGHTER,
						 New York
JOHN BOOZMAN, Arkansas				MIKE McINTYRE, North Carolina
						STEVE COHEN, Tennessee



                                     (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

                  UKRAINE'S PIVOTAL PARLIAMENTARY POLL

                                  ------------

                               November 14, 2014

                                  COMMISSIONER

                                                                   Page
Hon. Michael Burgess, Commission on Security and Cooperation in Europe.
                                                                      1

                                   WITNESSES

Olha Aivazovska, Board Chair, Ukrainian Citizen Network OPORA..........
                                                                      3
Katie Fox, Deputy Director, Eurasia, National Democratic Institute.....
                                                                      5
Stephen Nix, Director of Eurasia, International Republican Institute...
                                                                      8
Gavin Weise, Deputy Director Europe and Asia International Foundation 
for Electoral System...................................................
                                                                     10

                                  PARTICIPANTS

Orest Deychakiwsky, Policy Advisor, Commission on Security and 
Cooperation in Europe..................................................
                                                                      2
David Kostelancik, Policy Advisor, Commission on Security and 
Cooperation in Europe..................................................
                                                                     13

                                  (iv)


                  UKRAINE'S PIVOTAL PARLIAMENTARY POLL

                              ------------

                           November 14, 2014

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 2:00 to 3:27 p.m. EST in 608 Dirksen 
Senate Office Building, Washington D.C., Congressman Michael Burgess, 
presiding.
    Mr. Burgess. Very well. I would like to welcome everyone here 
today. My name is Michael Burgess. I'm a member of Congress from the 
state of Texas, just a little bit north of Fort Worth. I do want to 
welcome everyone to today's Helsinki Commission briefing assessing the 
October 26th Ukrainian parliamentary elections. We're so pleased and 
honored to have with us four distinguished panelists, all seasoned 
experts with long years of experience working with Ukraine.
    One often hears such terms as historic or milestone or critical to 
describe various elections. Sometimes, arguably, these are 
exaggerations. Not this time. This is truly a crucial moment for the 
future of the Ukraine. Not only does Ukraine face its most serious 
external threat since its independence, but it also faces significant 
internal challenges--overcoming the institutional corruption which has 
so debilitated the country, reforming the system of governance, getting 
the economy back on track and tacking the dire humanitarian situation 
resulting from the war and other challenges.
    The encouraging news is that the election of the most pro-Western 
Rada in Ukraine's history leaves no doubt that the Ukrainian people 
want changes and a greater connection to Europe. It is a mandate for 
economic reform and an end to pervasive corruption and a determination 
to resist the aggression from Russia. In short, Ukrainians want to live 
a united, independent, stable and prosperous democracy. While there is 
no doubt that the war in the Donbass complicates the reform efforts, 
Russia's aggression has made the Ukraine more united and more 
democratic and, ironically, more pro-Western. The election results 
affirm that.
    With these elections, Ukraine has its best chance since 
independence to consolidate its democracy. It is vital for the new 
government and Rada to seize the moment. Indeed, this election was 
remarkable. Like the election in May that saw the ascension of 
President Poroshenko, I was a Helsinki Commission observer at both. As 
such, I'd like to share with you some observations. The OSCE and others 
in the international community have assessed positively. It was held in 
accordance with international norms and upheld Ukraine's democratic 
commitments to its citizens. It was well-organized, it was transparent 
and it was peaceful.
    Clearly, these early elections were a marked improvement over the 
last parliamentary elections in October 2012. We saw no problems in any 
of the polling places we visited. The polling process was conducted 
calmly and efficiently. This assessment was shared overwhelmingly by 
other international observers. This is not to say that elections were 
problem free. They never are. It doesn't mean that there's not room for 
improvement, because there always is. I'm sure our panelists will 
address these problem areas and, in their assessment, what needs to be 
accomplished.
    As a Congress it is clear as an institution that we stand in 
solidarity with Ukraine. Time and again we have passed funding and aid 
packages for Ukraine. However, considering the consistent aggression 
and the utter lack of regard for any nominal peace agreement that 
Russia has shown towards the people of Ukraine, frankly, Ukraine needs 
more than just funding. Ukraine needs weapons, ammunition, body armor 
and communications equipment. President Poroshenko came before the 
United States Congress and addressed a joint session of the United 
States Congress last September.
    He has met with President Obama. Although President Obama has yet 
to heed the requests of the people of the Ukraine, I have introduced 
legislation that does just that. H.R. 53-15 creates a lend-lease 
program that authorizes the president of the United States to transfer 
certain military equipment to the Ukraine. While aid and funding is 
certainly necessary, weapons and munitions are just as important to 
repel the pro-Russian forces that are invading a sovereign nation.
    Given my interest in the subject, I am pleased to be leading this 
panel of experts today. But because of travel constraints, I'm 
unfortunately not able to stay with you. But I will defer to the 
Helsinki Commission staff for the panel's introduction.
    Orest.
    Mr. Deychakiwsky. Thank you very much, Dr. Burgess. I must say, it 
was a real pleasure to have the opportunity to be an election observer 
with you in Kyiv, Kaniv and points in between. I'll go right straight 
to the introductions. Thank you very much.
    I'll introduce our panel in order of appearance. First is Olha 
Aivazovska. Olha studied at the Cherkasy National University's faculty 
of the Ukrainian language in journalism. She was the head of the 
Cherkasy Oblast civic group PORA and was the head of the Cherkasy 
OPORA. She also served as the PR manager of OPORA. Since 2007, she's 
been the editor and chief of the Tochka OPORY newspaper. In 2009, she 
was elected the chair of the board of OPORA. Under Olha's leadership, 
OPORA has monitored the campaign period and election day and conducted 
parallel vote tabulations in Ukrainian nationwide elections in 2010, 
2012 and 2014. After Olha, Katie Fox will speak. Katie oversees NDI's 
programs in Belarus, Moldova, Ukraine and Russia. Katie began her 
career with NDI in 1995 as a Kyiv-based manager of civic and electoral 
program for NDI. She's since traveled and trained extensively for NDI 
throughout the former Soviet Union. A lawyer by training, Katie was a 
lobbyist for a public employees union, a community organizer and 
legislative staff in several congressional offices prior to joining 
NDI.
    Stephen Nix joined IRI in October 2000 as regional program director 
for Eurasia. In that position, he oversees programs in Belarus, 
Georgia, the Kyrgyz Republic, Russia, Moldova and Ukraine. Steve joined 
IRI after serving for two years as senior democracy specialist at the 
U.S. Agency for International Development. He is a specialist in 
political party development and judicial and legal reform in the former 
Soviet Union and lived in Ukraine when, I believe, he was working for 
IFES for several years in the 1990s.
    Gavin Weise is deputy director for Europe and Asia at IFES, the 
International Foundation for Electoral Systems, managing IFES' 
portfolio of election assistance programs in countries of Southeastern 
European and the former Soviet Union. He's worked for over a decade in 
elections in democratic transition programs in Ukraine. He's led a 
number of assessments of electoral processes and legal frameworks in 
Ukraine and other countries in the region, and previously he was the 
regional director for Ukraine, Moldova and Belarus at the Eurasia 
Foundation, based in Kiev.
    So without further delay, let's proceed. Olha, the floor is yours.
    Ms. Aivazovska. Thank you very much. I want to show you a short 
presentation about these elections and our results as an organization 
who observed very well during this process. We had 213 long term 
observers during all campaign, and 2000 short-term observers on 
election day and after election day in district election commissions.
    A short presentation about candidates and about campaigns. I think 
we've had a great progress about some positions. Firstly, our 
candidates--we had more candidates in 2012, and we had less numbers of 
technical parties during this campaign. For example, in 2012, our 
technical parties near 81 during all elections, registered candidates 
in single-member districts. But this process was only about the seats 
in electoral commissions, different levels as districts and as election 
commissions. That's why this last position is better for Ukrainian 
election than in previous regular election in 2012.
    We had progress with women in elections, especially in political 
parties' lists. For example, in 2012, we had near 20 percent of women 
in political parties list now, more than 26. Then our candidates were 
much more younger than in previous period. 32 percent of candidates 
were younger than 35 years. It's good for Ukraine, because many young 
people were very active during this revolution, and after revolution 
period, as NGO, as journalist and so on. That's why this election is 
like mirror of all political process in Ukraine, and our candidates had 
a good education. More than 92 percent had higher education. That is 
good. I want to show you a few slides about nonparty candidates in 
party lists. We think that it is a problem for Ukrainian politics and 
politicians, because many of candidates in party list was nonparty 
candidates. That means that in the future parliament, we don't know how 
they will work with their political fraction, with their parties and 
with other fractions, because they don't have any communication, 
cooperation and history with these parties. It's like political 
projects, only during one election and nothing else.
    Formerly, we elected new parties in parliament are very new as a 
political structure, but unfortunately, this partly mostly are 
political projects only for one elections. For examples, such parties 
as opposition blocs had 98 percent nonparty members in their party 
lists. For example, such party as communist party had such position 
only for 1 percent. Svoboda National Democratic Party, in their list, 
had zero members of these political parties.
    We analyzed such numbers for all party lists, and I can speak about 
some of them, especially that--who were elected after this election. 
For example, such party as Samopomich had 73 percent nonparty 
candidates in their list. Bloc Petro Poroshenko had 67 percent of 
nonparty candidates in their list. Such party as Strong Ukraine or 
others, less than 30 percent nonparty candidates. We think that it is a 
problem of Ukraine now that our political parties are not so capacity, 
strength, organization as we need for our parliament.
    That's why all international organization--Ukrainian 
nongovernmental organization should push them to be more party as 
political projects. I don't like to tell about violations after 
elections, because it's like a story, but we should analyze some 
information to understand what we will do, what we are going to do to 
change this situation.
    For example, these numbers is about violations which were--which 
were observed by our observers during all of these period. Four hundred 
violations--it's about agitation, information, black PR in electoral 
campaign--193 is about voter bribing. Unfortunately, in Ukraine, we 
have very high position of corruption and political corruption, too, 
and it is a story not only about parties or candidates. It's a story 
about voters, unfortunately, too. That's why these numbers are very 
strong gap for our elections.
    Then we can compare this part of problems with 2012, and I want to 
show you these numbers. For example, in 2012, we observed and had 457 
cases about abuse of administrative resource. Unfortunately, this 
problem was very influence for our campaign and for results in 2012. At 
the second stage was voter bribing--you had 363 cases, and it was a big 
problem, especially in single-mandate district as 2014, but we had less 
numbers of such cases; 302 cases in 2012 was about criminal 
interference in electoral process. Now we had such problem--procedural 
violations on the sought position, and I can say that this comparison 
between 2012 and 2014 are very good picture for us, because, 
unfortunately, we had many violations, but this violation was not so 
strong for results after election campaign and for the voters as 2012.
    About election days: We had many violations, but this number are 
less than in 2012, and as you see, the top position is about attempts 
to issue ballots without checking the passport for less than 4 percent 
from all polling station in Ukraine, and so on. If you are talking 
about voting counting, unfortunately, it is a problem in Ukraine, 
because we had such story as 2004, for example, presidential election, 
when, after vote and counting, we had another result than after voting 
of citizens. We can share with you such information about violations. 
So the main--the main result of our observing is about the single-
mandate ballots were worse counted than in the national district.
    I'm talking about problem of electoral system in Ukraine, when we 
have so many cases about political corruption, and unfortunately, with 
these single-mandate districts, our politicians couldn't be better than 
without this corruption system. If you are talking about turnout, 
unfortunately, many politicians, especially abroad from Russian 
Federation, too, from pro-Russian political groups, said that turnout 
in Ukraine was less than ever in our history. Yes, of course, it was 
less, but not so much, because we compare this turnout with the 
previous election--for example, in 2006, 2010, we have--we had 58 and 
57 percent of turnout--in 2012, it was 57, so we had less turnout, but 
you know that there is a war in Ukraine. That's why, in some territory, 
people unfortunately couldn't vote, even near their house were open 
polling stations.
    For example, in Luhansk Oblast, Rubizhne, district number 112, 
terrorist sent people--they distribute special letters that if you will 
go to the polling station, we will shot you. That's why many people 
don't go to vote, because they afraid about their lives. Our results of 
PVT organization work not only about quantitative--qualitative analysis 
of this election, but with quantitative too. That's why we organize 
PVT--parallel vote tabulation with special--with special--OK--we 
organize PVT, and here is the results of our PVT.
    For example, light blue is our results of PVT, which were 
publicized on Monday, 27th of October, and dark blue, it's about CEC 
results--official results, which were published on this week in 
Ukraine. The third column, it's about results--one of the exit polls. 
Unfortunately, we had many exit polls, but their results wasn't 
correct, especially for such parties--People's Party, for such party as 
Bloc Petro Poroshenko because all of the exit polls showed that the 
first position was by Petro Poroshenko, not People's Front. The main 
mistake was about such party as Svoboda, because all of exit polls 
showed that they get results more than 5 percent, but unfortunately it 
wasn't true.
    That's why our PVT was so strong because political example of 
results because we think that with PVT, many parties, especially pro-
Russian politicians, wanted to say that results was falsificated, but 
it isn't true because results was correct, especially official results, 
but exit polls didn't show us--for us real results because margin of 
error is too high compared with PVT. For example, margin of error for 
Svoboda was 0.2 in our research. They don't get 5 percent, 
unfortunately.
    If you are talking about visualization or some information about 
results, we prepared special online map when everybody made to see 
results per each district about turnout, about results or political 
parties and about results of candidates in single-mandate districts. 
For example, it's results of People Front, and you can understand where 
their voters live and what part of Ukraine prefer to give more votes 
for this political parties. It's about luck of Petro Poroshenko. It's 
about Samopovich. It's about Opposition Bloc where there were many, 
many politicians from Party of Region as a party close to Viktor 
Yanukovych, and you very well can see that it is eastern Ukrainian 
party. About Radical Party of Oleh Lyashko and Batkivshchyna.
    Thank you.
    Mr. Deychakiwsky. Thank you very much, Olha.
    Katie, please.
    Ms. Fox. Thank you very much, Orest, for the opportunity to speak 
here today, and David, thank you. OK.
    The National Democratic Institute, which I represent, also 
monitored the recent elections. We were very pleased also to assist 
OPORA in conducting their PVT as well as to help the European Network 
of Election Monitoring Organizations, which is a network of the groups 
like OPORA in the countries of Eastern Europe. NDI's delegation to the 
election said, quote, Ukraine's October 26 parliamentary elections 
marked a major achievement for a country fighting foreign--facing 
fighting and foreign intervention. For the second time in less than six 
months, the Ukrainian people have conducted elections that meet 
international democratic standards in spite of the Russian occupation 
of Crimean and Russian-backed separatist conflicts in the east. I want 
to pause a minute on this point on foreign intervention because it's 
even truer today with Russian troops again marching into Ukraine. The 
war is not the subject of today's briefing, but it is very difficult to 
talk about Ukraine and about elections and democracy without mentioning 
it.
    At stake is not only a fighting chance for a democratic government 
in a very tough neighborhood but Russia's ability to unilaterally 
redraw foreign borders through aggression. Ukraine's struggle should be 
of concern, therefore, of all of us. I was very happy and appreciative 
to hear Congressman Burgess' supportive remarks and also for support 
from other corners of the U.S. government.
    NDI's monitoring delegation further concluded that the electoral 
process involved some shortcomings but that none appeared to undermine 
electoral credibility. As Olga has told you in greater detail, there 
were problems in the legal framework, sporadic incidents of violence, 
intimidation and attempts to disrupt voting, some voter bribery and 
smear campaigns in the media as well as insufficient promotion of women 
and inadequate regulation of campaign finance. But these issues were 
less pervasive than in the 2012 parliamentary elections. Very 
important, it did not appear to be centrally orchestrated or directed 
against a particular political target.
    There was, as the invitation to this event noted, some 
disenfranchisement for voters. I want to elaborate a little bit on that 
because it's very important to note the source here of voter--the 
source of the voter disenfranchisement. In most cases where NDI 
monitors elections, the source is political contestants or authorities 
themselves. In this case, voters in Crimea, Donetsk and Luhansk were 
disenfranchised because of the actions of foreign forces and armed 
groups allied with them.
    This does not delegitimize the parliamentary elections. In fact, 
officials are making every effort to conduct democratic elections, and 
there's--the actions of these armed groups does not undermine that 
effort. We can also point to cases in Cyprus, Moldova and Georgia 
recently where the central government has lost control over some of its 
territories, which has led to disenfranchisement, and in those of 
voters. In that case--in those cases, no one questioned the legitimacy 
of those elections. The same is true in Ukraine.
    Turning for a minute to the challenges ahead for the new parliament 
and the government as a whole in Ukraine: Although Ukrainians are 
divided on many things, they are certainly united, wanting an end to 
the old Yanukovych-style corruption, and they gave in these elections a 
reasonably strong mandate to reformers in the new parliament to end 
that corruption. Moreover, it appears that Ukraine's leaders, including 
President Poroshenko and Prime Minister Yatsenyuk, have heeded the 
lessons of the Orange Revolution, and they understand that democrats 
need to work together.
    Despite all of this, what our office is hearing on the ground is 
that the negotiations which are going on now to form a governing 
majority coalition in the parliament are very difficult. It's very 
difficult for the five parties, five reform-oriented parties, to reach 
agreement. There are fissures within the parties themselves. For 
example, UDAR and bloc of Poroshenko are going to contest local 
elections separately after running together presidential. The new party 
Volia is splintering, which is creating fissures within the new 
Samopomich faction, of which it's a part. By the way, the people who 
we've spoken to in the Opposition Bloc say that they are equally 
disorganized. They can't even really decide what to call themselves. 
They of course have even more trouble setting out a common vision.
    Once a government is formed, it's going to be very, very hard to 
exercise the discipline that will be necessary to pass difficult 
reforms. As Olga has pointed out, many of the people who were elected 
feel little loyalty to the party lists in which they were elected. They 
are a disparate election of battalion commanders, journalists, NGO 
leaders and more traditional long-serving politicians. They came to 
parliament for different reasons, they have different external 
constituencies, and divisions are inevitable, especially when they have 
to confront very controversial issues, such as decentralization, 
lustration, deciding how lustration is implemented and who loses their 
job, deciding how decentralization goes and who--where power ends out 
at the local level. These are hard issues, not to mention economic 
collapse and fighting a war.
    In these conditions, it would be very difficult for any 
democratically elected parliament, including, I'm sure, our own 
Congress, to meet citizens' expectations for sweeping reforms quickly 
implemented. However, what the Ukrainian government can do is to try to 
retain the patience and confidence of citizens in this reform process 
by bringing them into it, by making them partners in the process, as 
long as--as long and difficult as that process may be. This will 
require a lot of creativity, a lot of effort to set up mechanisms for 
public discussion and consultation, to really reach deep.
    The challenge is to give impatient and alienated citizens a sense, 
as I said, that they are partners, or at least that they're being heard 
in the reform process that's being driven by the central government. 
This will require going beyond what's called the grass tops, the 
leaders of civic organizations, to get to those Ukrainians who are 
either not active in politics or the groups that are just taking reform 
process into their own hands, the mobs who are conducting what's called 
people's lustration, where they confront officials they believe are 
corrupt and force them to sign resignation letters and sometimes toss 
them into dumpsters. Armed groups who've threatened that if reform 
doesn't go well, they may come back with their arms to the Maidan, 
these people too need to feel a stake in the reform process.
    I want to just quickly share with you, in the interests of trying 
to understand what would attract Ukrainians, particularly in the south 
and east, into peaceful civic activism and support of reform, NDI has 
helped a coalition of civic groups to conduct some public opinion 
polling recently. This is a coalition called For Peaceful Protest. It's 
a group that has been very instrumental in helping to protect the 
freedom of assembly in Ukraine, including during the Euromaidan 
demonstrations. After the ``revolution of dignity,'' they wanted to see 
what would motivate people, especially southern and eastern citizens, 
to get involved in more everyday business of politics beyond protest.
    So they conducted polls and focus groups in Poltava, Sumy, Kharkiv, 
Dnipropetrovsk, Zaporizhya, Kherson, Mykolaiv and Odessa. I'm not going 
to go over in much detail, but one of the most interesting findings 
from this poll was the way that people viewed civic activism. A solid 
majority of the respondents believe that in Ukraine, people get 
involved in civic activism to do good, to change the world for the 
better or to protect someone's rights. This is a departure from past 
polls in which most people have much more cynically seen civic 
activism, civic organizing as something people may do for their own 
personal benefit or advancement.
    In addition, there are a lot more specific findings in the poll 
about the particular issues--in the focus group--that--particular 
issues that would motivate people to get involved and the way they need 
to be approached, the need for organizers and so forth. We're still 
sort of sorting that out, and I'm not going to go into it, but I think 
the overall picture is of a citizenry that wants to participate and 
that has energy and enthusiasm and wants to participate in constructive 
ways to the reform process. In the future, NDI will be working with 
this group, For Peaceful Protest, as well as with other NGOs to channel 
desire for reforms into civic activism.
    We'll also be very proud to share our global experience OPORA as 
they renew their project on parliamentary monitoring and watchdogging 
the new parliament, which you may want to ask Olha about in the 
questions. NDI along with IRI will also be flagging assistance to 
parties and parliamentarians. I'd like to just conclude my 
presentation, again, with a reminder of the urgent need for all of us 
to help Ukraine, for the international community to support Ukraine in 
every way, in every form at this crucial juncture. Ukraine's response 
to the challenges it now faces will certainly have reverberations far 
beyond its own borders.
    Thank you very much.
    Mr. Deychakiwsky. Thanks, Katie, for your insights. I particularly 
found interesting that poll on civic activism where there is a 
transition being made from working for one's personal benefit to doing 
good, and that truly could be a game-changer. Thanks again.
    Steve.
    Mr. Nix. First of all, thank you to the members of the commission 
for convening this hearing today. Ukraine and Eurasia remain of great 
strategic importance to the United States, in particular at this time 
when Ukrainian people and their newly elected leadership face 
tremendous and unprecedented challenges. This briefing is both timely, 
and it's necessary. My thanks go out to you, David and Orest, for 
hosting this. I request that my written statement be entered into the 
record.
    On October 26th, millions of Ukrainians went to the polls to elect 
a new government, a government that would focus on implementing long-
term reforms, and secondly, to respond to Russian aggression. An 
overwhelming majority of Ukrainians were able to vote, despite the fact 
that fighting continued in eastern Ukraine and the annexation of Crimea 
made it virtually impossible for Crimean citizens to vote in this 
election. Ukrainians turned out to support the journey to Europe, a 
journey that had started on the Maidan and now continues.
    The International Republican Institute fielded an international 
election observation team. IRI has observed every national election 
that has taken place since Ukraine gained its independence from the 
Soviet Union. Observers have visited more than 150 polling stations in 
various oblasts. We are also very pleased to note that IRI observers 
were able to get into the contested area of Donestk, and we were 
actually able to observe voting that took place in the town of 
Slaviansk, a town that as many of you recall was the subject of intense 
fighting and only had recently been retaken by the Ukrainian government 
and is currently over--under Ukrainian control.
    Our mission found that the elections were well administered. We 
found that polling officials were professional and organized throughout 
the process. Our observers reported only minor, nonsystemic problems, 
technicalities, none of which would have affected the outcome of this 
election. We applaud the way that this election was administered, and 
we applaud the many election commission members who took part in this, 
many under very difficult conditions.
    These elections illustrate Ukrainians' resounding choice to 
continued European integration. The vast majority of members of 
parliament who have been elected represent a pro-European choice. 
President Poroshenko importantly will now have a working coalition to 
support him in his efforts for reform and further integration into 
Europe.
    But despite the successful elections, Ukraine faces many 
significant challenges. First and foremost, the threat to Ukraine's 
territorial integrity by its Russian neighbor. Russian and Russian-
backed militants have chosen to ignore the Minsk peace accord. They 
continually seek to seize additional territory in eastern Ukraine. 
They've launched daily attacks on Ukrainian positions and checkpoints, 
including the strategically important airport in Donetsk. Recently 
militants have launched an offensive along the Azov Sea, threatening 
the city of Mariupol. More than 100 Ukrainian servicemen have lost 
their lives since the so-called Minsk peace agreement was signed.
    With much attention focused on the conflict of eastern Ukraine, 
Russia's illegal annexation of Crimea has often been overlooked by the 
international community. Since the annexation, conditions on the 
peninsula have only worsened. They've gotten worse for supporters of 
Ukrainian unity and especially for the Crimean Tatars. Crimean 
residents have been forced to renounce their Ukrainian citizenship in 
favor of Russian citizenship. In the last few months Crimean Tatars 
have become the target of Russian prosecution. According to Mustafa 
Dzhemilev, who's the leader of the Crimean Tatars, 18 Tatars are 
missing, many kidnapped in broad daylight. Tatars have been--have had 
their homes illegally searched, property confiscated, their centers and 
places of worship raided and seized. Numerous criminal cases have been 
opened against Tatar political leadership.
    These threats to Ukraine's territory and its people are real, and 
the international community should support President Poroshenko in his 
efforts to resolve these issues. Ukraine will not be able to pursue the 
reforms needed to move closer to Europe while its territory is under 
siege by foreign actors. A peaceful and whole Ukraine is of paramount 
strategic importance and must be a priority for the West.
    IRI nationwide polling in Ukraine confirms very simple facts. First 
and foremost, Ukrainians want peace. They also want anti-corruption 
efforts, and they want economic reform, jobs. These are the key issues. 
They continue to be key issues for the past six months. The government 
has to seize the opportunity to undertake wide-ranging economic and 
judicial reforms. The economy is teetering on the verge of collapse. 
This is only exacerbated by the Russian ban on Ukrainian imports.
    As Ukraine braces for gas shortages ahead of what might be a long 
winter, Ukrainian economy shows little signs of improvement, with the 
hryvnia hitting a record low. The months ahead are likely to be very 
difficult for the Ukrainian people.
    Europe and the United States cannot allow the Ukrainian government 
to face these challenges alone. The West should provide the president 
and parliament with the economic, technical and other assistance to 
ensure that Ukraine realizes its aspirations in the face of overt 
Russian aggression.
    At IRI, we're working to help Ukrainian people and government 
consolidate democracy. While Ukraine's future is obviously up to 
Ukrainians, we believe that the community of Western democracies can 
play a role in providing the tools and assistance that can help Ukraine 
continue along its democratic path. IRI will continue to provide survey 
data on key issues to parliament and the executive branch to assist the 
president, prime minister and members of parliament in framing 
legislative and ministerial reform agendas. We will also continue our 
regional governance work to respond to the need for knowledge and 
skills as Ukraine addresses the issue of decentralization and radically 
reform their local government.
    IRI will soon open an office and training center in the city of 
Dnipropetrovsk, where we will focus on efforts on locally elected 
officials, providing them training and expertise. We'll also be 
bringing eastern elected officials to cities in Western Ukraine, and 
vice versa. We hope in doing so we cannot only increase their level of 
expertise but build the unity that President Poroshenko and others 
acknowledge are necessary for Ukraine to continue its path to Europe.
    Although Russian propaganda would have us believe that Ukrainians 
are divided and engaged in a bitter civil war, Ukrainians have never 
been more united than now. IRI also recognizes that more must be done 
to promote and enhance these linkages between Ukrainians. In sum, 
Ukraine will always have a special relationship with Russia and its 
people, with its language, its culture and historical ties. But through 
the Maidan and now the May and October elections, the people have 
spoken very loudly. Ukrainians of all backgrounds, ages and faiths have 
said that they want to decide their own future, a future with greater 
freedom, greater democracy and closer ties to Europe. It is at this 
critical time in Ukraine's further democratic development that the West 
must stand with our Ukrainian friends and do all we can to support them 
in their efforts to further consolidate democratic processes throughout 
their country.
    Thank you, and I'll be happy to take any questions at the end of 
the testimony.
    Mr. Deychakiwsky. Thanks, Stephen. In particular, thanks for 
emphasizing Crimea. It's easy to forget Crimea these days because the 
focus on Dohensk and Luhansk--the war in eastern Donbass, but it's 
important not to forget Crimea, including the plight of the Crimean 
Tatars.
    Gavin.
    Mr. Weise. Thank you, Orest. Thank you, everyone, for coming in 
today. I'm not sure what else there is to be said after following these 
very distinguished and thorough presentations, but I will do my best. 
As you have heard today, the early parliamentary elections were 
regarded as successful by domestic and international observers alike, 
and I will not go into the many reasons why, but rather concur with 
this general assessment, and instead I'll summarize the elections from 
a different viewpoint, mainly--and something Katie, I think, touched 
on--is just addressing lingering concerns regarding the legitimacy of 
this election and the ensuing government; and second, the need for 
further support to still nascent political and electoral institutions 
of Ukraine.
    As to whether the elections are legitimate when they're called 
early, when political forces are going through a period of rapid 
transformation and the country a period of active and even open armed 
conflict, I would offer just a few observations that are very similar 
to those that I offered to Prime Minister Yatsenyuk on the eve of the 
May 25 presidential poll, as we find ourselves in a similar situation. 
On the 26th of October poll, voters had 29 parties to choose from in 
the proportional list system, from the far left of the spectrum to the 
far right of the political spectrum, and more when we include 
candidates from the single-member districts. While many parties were 
small and even frivolous, there were approximately 10 different parties 
who in pre-election polls, in many different pre-election polls, showed 
that they had at least a reasonable chance to win seats in the new 
parliament. Arguably, Ukrainian voters have not had this number and 
variety of meaningful political options since, really, post-Soviet 
independence. The values, the platforms, the programs of political 
parties were accessible to the electorate, largely. Television in 
Ukraine is by far the most prevalent source of voter outreach and voter 
information. While access to that airtime is very dependent and 
actually too dependent, probably, or definitely, on the bank accounts 
of political parties and their patrons, the level of freedom of media 
in a post-Yanukovych Ukraine is sufficient enough to allow different 
voices on the political spectrum to be heard.
    Ukraine should also be recognized for having now an efficient 
system of voter eligibility and registration. This was once heavily 
criticized by political parties and observers for the vulnerability 
that it provides to fraud or opens up to fraud, and now it is generally 
sound. Moreover, it's a system, very importantly, that could 
accommodate the registration of tens of thousands of citizens from 
Crimea and from Donbass that would enable them to vote in their places 
of refuge. This is a right they might not have been afforded under a 
less-sophisticated system. The election authority, which is the Central 
Election Commission of Ukraine, together with other government 
agencies, succeeded in administering the vote on October 26th despite 
numerous threats, a smaller than usual elections budget and of course 
ongoing shelling, conflict, intimidation in certain parts of the 
country.
    It's true, the elections didn't take place in several districts in 
eastern regions and in Crimea, as we've heard today. However, remember, 
this was a question of territorial control by the government in Kiev 
and not a lack of competency by the election administration, or 
importantly, an unwillingness to try. I say women because it is mostly 
women--and men who risked being a casualty of armed conflict, who faced 
harassment, intimidation and who still face this risk even today for 
their service in these past elections, should really be regarded as 
heroes. IFES has had the opportunity to work with many of these 
commissioners in the east, having had a number of staff and trainers 
work there in Donetsk, in Luhansk, in the weeks and months prior to the 
election.
    There were some challenges to the results. As we speak, there are 
ongoing court-related recounts in two of the single member districts. 
But this is a basic feature of any functioning democracy, and overall 
there's been a general acceptance of the results by the public and 
political contestants alike.
    There will be, as was already mentioned, several new forces and 
faces in the Verkhovna Rada. It includes not only the pro-Western 
European parties that will now work together to form a coalition, but 
it also includes representatives of the former Yanukovych party and it 
also includes representatives of the Euromaidan movement and also 
military and even paramilitary. So this may be quite a hodgepodge of 
individuals and factions in the parliament, but it's arguably the most 
diverse and representative parliament Ukraine's had to date. although 
it's still very low, as Olha mentioned earlier and showed us on the 
slide, it's the highest representation of women in Ukraine's 
legislature in the country's post-Soviet history.
    There is no single definition or criteria that I could find or that 
I'm aware of for having legitimate elections, but I would posit that 
when you have political choice, you have access to information on 
candidates, you have enfranchisement of citizens, you have a 
functioning election administration and you have a general acceptance 
of the electoral outcome, you may--you have many, if not all, the 
characteristics of a legitimate election process.
    Is there work to be done? Absolutely. There were at least 15 of the 
almost 200 single election constituencies where officials faced 
problems in coming up with results in a timely and transparent manner. 
They were problems inside and outside the polling station inherent in 
the system administration and political culture of Ukraine. The 
problems are cumbersome. Some procedures are cumbersome. Some polling 
station sizes are unwieldy for Ukraine's manual counting of ballots. 
Election workers get at most half a day of training. The majority get 
no training at all except which is provided by their peers. Access to 
voting for persons with disabilities remains fraught with difficulty 
due to the infrastructure and also cultural legacies of the country.
    At some point next year, we'll have local elections. The challenge, 
as I mentioned, will undoubtedly surface again. In fact, local 
elections are, in my opinion and many others, by far the most complex 
for parties, election administration bodies and for the electorate, for 
the voters. The system of electing councils that in Ukraine's reality 
has proved to hold open a door to fraud, abuse of administrative 
resource and vote-buying in the past could and really should be 
reviewed by Ukrainians to be certain that this really is the best 
system to represent their citizens.
    Regarding the electoral administration--I could go on on this one 
for quite some time because it's the area where we work, but I won't--
but the current system of appointing all of the commissioners via 
political party representatives and via lottery is clearly fraud. I'm 
not saying that it is the wrong system--and it may be the only viable 
possible system to have in Ukraine--but there are certain elements of 
that system which currently right now are being abused to the point of 
legalizing or making legal a form of fraud, which essentially is 
allowing parties to try and control and unduly influence electoral 
outcomes as opposed to exercising the right or exercising the role of a 
professional election administration.
    Now, the role of money in politics continues to be perhaps the 
weakest point in Ukraine's--of Ukraine's elections. There is very 
little regulation of campaign finance and--period. Together, with 
Ukraine's civil society, IFES has drawn up draft legislation to improve 
transparency of election financing and they were supported by the major 
political groups in the previous parliament, including members of 
Batkivshchyna, Poroshenko, Klitschko's Party, et cetera. But they were 
not adopted prior to the parliament's dismissal. IFES and others remain 
hopeful that this will be taken up early in the new agenda. To restrict 
the oligarch's influence on political decision making, parliament also 
needs to really think seriously about things like direct annual public 
funding of political parties, limiting the value of private donations 
to parties, introducing proportionate effective dissuasive sanctions 
for violation of these rules. In many cases, there is no right or wrong 
method or answer to some of those questions, but they are questions 
that the new Rada should look at very seriously.
    Friendly governments such as the U.S., and organizations such as 
those sitting up here today, are and should be and are ready, willing 
to support Ukraine in changing for the better. Such ills as I described 
here can be effectively remedied in the months and years to come. 
However, success in this process also requires political will on the 
part of Ukraine and I, for one, believe the will is there; more so now 
than perhaps it has ever been. In conclusion, or perhaps in lieu of a 
conclusion, I must mention that, of all these reforms and those 
regarding corruption, economy, administration of justice--the list goes 
on and on--they will need to be implemented in a time that--perhaps 
I've called it too lightly--of considerable uncertainty in Ukraine. 
Considerable being an understatement when citizens residing in certain 
towns, certain villages, even cities, don't know if they will even 
still be part of Ukraine in days or a week from now. In such a context, 
worrying about the future of these reforms seems a bit out of place. As 
such, in arguing for U.S. support and vigilance of the continued 
development for the political system and culture of Ukraine, I beseech 
this commission, the U.S. government, society as a whole in the U.S. to 
not neglect Ukraine in its darkest hour of need, when it faces the 
clearest threat to its continued viability as a state since it became 
independent 23 years ago. For a while, the soon to be constituted pro-
European parliamentary majority gives Ukraine the opportunity to move 
beyond the status quo of an unsatisfactory governance that has beset 
the country these many years. Surely, we must also help Ukraine to 
preserve a different kind of status quo, that of its statehood and 
territorial integrity. Thank you.
    Mr. Deychakiwsky. Thanks, Gavin, and believe me, this commission 
and all of the organizations here will continue to be very committed to 
supporting Ukraine--definitely won't abandon Ukraine. But thanks all of 
you for your comprehensive and complementary presentations.
    I want to make a few comments before turning it over to the Q & A 
session. One is, in terms of how they were conducted, I observed the 
elections with Dr. Burgess for the OSCE Parliamentary Assembly--the 
OSCE, of course, was the largest mission, at over 1,000 short term 
observers there, including close to 200 parliamentarians. I've observed 
elections in nine countries--several dozen elections--and these were 
just about the best I ever saw, based on the polling stations we 
observed. We didn't see problems--didn't even see irregularities, so 
either I'm losing my touch or they really, really were good. The vast 
majority of the OSCE observers also assessed the voting process and 
counting process quite positively.
    The biggest negative in these elections--and this is underscoring 
points my colleagues here made, I think--obviously, there were areas 
that need improvement and Gavin and Olha and others touched upon those. 
This is a process, after all. But the biggest negative was clearly the 
inability of more than 10 percent of the population which was 
effectively disenfranchised given Russia's illegal occupation of Crimea 
and parts of Donetsk and Luhansk oblasts. But, as Katie said, that does 
not delegitimize these elections.
    One thing I'd like to note is these elections stood in dramatically 
sharp contrast to the farcical so-called elections that were held just 
a week later, on November 2nd in the eastern Donbas, the areas 
controlled by the Russians and their illegal armed Russian proxy 
groups, or terrorists, as many have called them, I think appropriately. 
These elections--so-called elections--were held in flagrant breach of 
both Ukrainian law and of the Minsk ceasefire agreement. Clearly, 
Russian aggression has cast a dark cloud on Ukraine, tremendously 
complicating Ukraine's normal development, but reforms are still 
absolutely necessary, including combating the scourge of corruption. I 
hope that a coalition agreement is hammered out soon so that a new 
government and the Rada could work effectively to keep meeting 
Ukraine's many very serious internal challenges.
    Before turning it over to Q & A from the audience, I'd like to 
introduce David Kostelancik, who will make a comment and ask the first 
question. David is a long time service officer. We're very happy to 
have him currently serving as senior adviser at the Helsinki 
Commission--senior State Department adviser at the Commission. Until 
August, right before joining us, Dave was the Director of Russian 
affairs at the State Department, so he has had a lot of experience with 
Ukraine, given the Russia--Ukraine crisis. I'll pass it over to you, 
Dave.
    Mr. Kostelancik. Thank you. Thank you, Orest. Thanks to everyone. 
Thanks to our guests for excellent presentations on the elections. Dr. 
Burgess and my colleague Orest have made some significant points 
regarding the elections in Ukraine but let me just make a short comment 
regarding Russia and the Russian government's manipulation of 
information, specifically in regard to its illegal activities in 
Ukraine. First, as attested by our witnesses today, the determination 
of the citizens of Ukraine to ensure that their country carries through 
on its commitments, including those in the Helsinki Final Act and other 
OSCE documents, contrast sharply with the failure of Russia to honor 
those same international obligations. The power of truth, sometimes 
neglected or downplayed or distorted in a world awash with cynicism, 
has shone a spotlight on Moscow's transgressions in this part of the 
world. Manipulation of information by Russia in such as systematic 
manner intended not to educate, but only to corrode trust and 
confidence, flies in the face of what we've all committed to uphold 
through the OSCE. Today's opportunity to hear directly from people with 
firsthand experience during the recent Ukrainian elections is an even 
more vital piece of our support for the people of Ukraine and their 
democratic choices.
    Secondly, as they assume the OSCE chairmanship, Swiss officials 
outlined three areas of focus promoting three major sets of values for 
2014: security, by focusing on fostering enhanced security and 
stability in Europe; freedom, by improving people's lives; and 
responsibility, by strengthening the OSCE's ability to act. The Swiss 
leadership and, indeed, all of us who place trust and confidence in the 
OSCE have been sorely challenged to make progress in each of these 
areas by Russia's illegal annexation of Crimea and by its ongoing 
violation of the norms and standards enshrined in the Helsinki Final 
Act.
    With this short background, I'd like to toss out for consideration 
by our panel and by others in the audience: In light of these 
violations, in light of the pressure Moscow continues to apply, 
especially in attempting to cover up truths or distort realities of 
governance in Ukraine, how can the United States, together with the 
European Union, with other partners, help ensure that the democratic 
will manifested in these elections strengthens and deepens political 
participation in the future throughout Ukraine? That's been touched on 
to some extent in some presentations--Katie, Gavin, Steve, Olga--but 
I'd be very interested in hearing more from you about how we all can 
work together to carry this momentum forward.
    Thank you.
    Mr. Nix. Sure. Well, thank you for the question, David. There's no 
doubt that Russia propaganda has played a role, continues to play a 
critical role in shaping opinion, wrongfully, not just in Ukraine and 
in Eastern Ukraine, but in Europe and the West. I'm not sure at this 
point in time we can match what the Russian government is outlaying in 
terms of net dollars. They are--they have expended millions and 
millions into cable network television, print media, radio media. It's 
manifested by what you see in Russia today, which is now broadcasting 
in several languages and promoting a line of fabricated news that just 
doesn't represent the facts on the ground in Ukraine at all. It 
distorts opinion, has made it very difficult for this government.
    The fact that Russia attempts to stand up in its media broadcasts 
for the rights of people in the East, when it ignores the human rights 
of its own people, its own country, to me is appalling. And I think, 
again, the continuing insulting line that we hear about the fascisti, 
the fascist nature of the current Ukrainian government, the name-
calling, which, again, is just--not only is it regrettable, it's--
what's the Ukrainian word--``brekhnya''--it's total lies. And the West 
has to figure out a way to counter this disinformation, not just in 
Ukraine but in Europe. It's happening all over.
    Ms. Aivazovska. I'll try to answer, because my English is not so 
well, but when we are talking about freedom of speech, we should 
understand that this story isn't about Russia, and about Russian media, 
especially, that media who specialized on propaganda and so on. We 
heard such story when these occupations started on spring, when our 
governance tried to stop broadcasting of Russian TV, especially on the 
eastern part of Ukraine.
    Then many foreign organizations, including OSCE, said it is not 
democracy if you stop to show these TV broadcasting in your territory. 
But nobody tried to monitor context from Russian news because, 
unfortunately, it isn't in use or analytical materials; it's really 
propaganda without any truth about Ukraine, without facts, without some 
fantastic stories from our territory and so on. That's why 
international organizations with good capacity and strength should try 
to monitor this information and publish truly results, reports about 
context from Russian propaganda. It will be the very small but the 
first step to stop the situation, especially in Europe and other 
countries when Russian TV channels, Russian journalists have good 
capacity and many money to promote their information on this territory.
    Unfortunately, Ukraine is a poor country with war, and now a 
territory with financial crisis and so on. That's why this should--a 
small help from international organizations will be very useful for us. 
I'm talking about monitoring and about very good reports, good--I'm 
talking about systematic and strength reports about Russian propaganda 
and Russian media, which will be helpful for all of us.
    Mr. Weise. Can I take that as well? I just would agree, you know, 
with Steve and Olga about that. The information wars are one of the 
critical problems, and that I am not sure personally, of course, how to 
address that fully. But I would also say that in addition to trying to 
counter some of the information that is out there right now, it's also 
important that, you know, besides this fraction of the area of Donbass, 
the rest of Donetsk and the rest of Luhansk, and even parts of 
Zaporozhye and Kharkiv and what have you, Dnipropetrovsk, it's also 
very important to concentrate on information sources in these regions 
as well, because these regions they voted majority, let's say, pro-
European, but that doesn't mean that this is 99 percent of the people 
as well.
    There will be a lot of reforms that Ukraine must undergo in the 
next 12 months, 24 months, I'm not sure how long, but it's very 
important, I think, that support be given to the Ukrainian authorities 
on communicating what this European choice means.
    The second point I am going to make here is just that, getting 
outside of the area of media, and I don't think we're there yet, of 
course, but I do also worry about, you know, the longer the conflict 
drags on--and this is ultimately what I think Russia's intention is, is 
to solidify the situation and to get to the point where we are stuck, 
you know, and where we cannot easily go back. You saw the Ukrainian 
army rapidly pushing back on the separatists and on the territory held 
by the separatists, and that's when you immediately saw, a few months 
ago, the counter-action by special forces of Russia, and supplies, in 
order to stop that beating back and to reverse the situation.
    I'm still not giving up and I still don't think we're there yet, 
and I still think the situation can be turned around. But in terms of 
support, as well, looking ahead, the more the situation gets to be of a 
semi-permanent nature, we need to make sure that there is continued 
support for Ukraine to show the difference, to show what European 
Ukraine is going to mean. We need to try to come to the point where it 
looks more, sort of, like, let's say, Germany, you know, a GDR FDR 
situation, where clearly there is a better alternative and that's what 
the citizens want. That's something that would require a lot of support 
and a lot of investment on Ukraine, because there has to be shown to 
the people that are left there, because we also know that many of the 
people who were most anti-separatist and most pro-Ukrainian have been 
forced to flee--but that we show that there is a far better opportunity 
out there and a way of life, and that these people can have this way of 
life too.
    Ms. Fox. I wanted to add that it's a relatively small slice of 
Ukraine that is not getting Ukrainian unbiased source of information as 
opposed to Russian sources, and the information war is very, very, very 
important, including in Germany and the U.S. and a lot of places 
outside of Ukraine. But in Ukraine there are hearts and minds to be won 
over by people not subject to Russian propaganda, and as I tried to 
point out in my remarks, there are opportunities, I think, for both 
civil society and the government to do that.
    Mr. Deychakiwsky. OK, thank you. Now we'll move on to questions 
from the audience. If you could please come up to the mic, because this 
is going to be--this is being transcribed. Please identify yourselves. 
You're welcome to make comments, but try to keep them short and 
concise, and ask a question at the end, or simply ask a question. So. 
We'll give it a little time, because I know--That's right. Olga had set 
this up, and we forgot to take advantage of it when she was presenting. 
So, please, go on and tell us what else OPORA is involved with. Thank 
you.
    Ms. Aivazovska. Why? Yuri is my colleague from Ukraine. He is 
leader of our network and he knows very well about parliamentary 
monitoring, because we understood in 2012 that after election our life 
doesn't happen--don't and--and that's why we tried to push our 
parliament to be more transparent, to be more accountability--to have 
more level of accountability and so on. We have some ideas. Yuri?
    Mr. Yuri. OK. Hello, everybody. Observing the elections we have 
understood that, OK, elections will be good and parliament can be good 
and properly elected, or openly elected, but then what's going on in 
the parliament after the elections? We were there, in their work, 
monitoring them. What do we do? Firstly, we monitor all the 
quantitative information we can get, and not only monitoring but also 
do two things. Firstly, we propose changes and our amendments, 
recommendations and views to the parliament, to the committees and to 
the MPs like how to work better, what could be improved or, for 
example, what could be improved just like this? This also were 
important because sometimes they can't see that they can improve a lot 
of things and they don't need any money or resources for this. 
Secondly, we analyze the qualitative information--draft laws, laws. We 
have a special methodology containing of 30-something criterias how to 
analyze the draft law, how to calculate how much is transparent, 
qualified, quantified, and if it will work or not. Also, we read all 
the draft laws our parliament produce. It's something I think like 600 
per month, yeah, draft laws. So we read all of them, give our comments 
on each and every one of them, like proposing that maybe this could be 
improved somehow or maybe, like, stop working with this and, like, 
forget about it for a few months and so on. That's the main things we 
are doing now.
    After the elections we have got a lot of our own experience of 
election organizing about the job of government should do. We will 
prepare, in a few weeks, a bunch of recommendations and improvements 
for parliamentary legislation--for the governmental legislation for the 
changes to the political party law. As you've seen, like, right now the 
political party doesn't work properly for the transparency of partisan 
public finances.
    Mr. Deychakiwsky. OK, thank you. Any other questions? Karl, come on 
up to the mic--from our Baltic friends.
    Questioner. This is not so much a question but just a--just a 
comment, I suppose. My name is Karl Altau with the Joint Baltic 
American National Committee. We represent the Estonian, Latvian and 
Lithuanian American communities. We're actually here on the Hill today 
in the Senate--perfect timing because you had this briefing today, but 
we're dropping off letters to the Senate asking for support for the 
Crimea Nonrecognition Resolution and also the Ukraine Support Act.
    We've been just leaving the message we're here in support of 
Ukraine, also the Baltic countries and our Central East European 
colleagues and allies. We're very anxious right now, obviously, so this 
election result was very--was very positive for us as well, although we 
realize that the situation also is very dire.
    I commend along with my colleagues who are here today, we commend 
your bravery and your fortitude in moving forward. So we'll continue to 
work together with you. Actually working with the Ukrainian community 
on two days of advocacy next week in the Congress, so we'll be back and 
spreading the word. I wanted to recognize my two colleagues who are 
with me today: Christina in the back over there, and Elsma right here. 
So we stand with you. Thank you. Appreciate it.
    Mr. Deychakiwsky. Thanks a lot, Karl.
    Let me take advantage of this opportunity. Indeed there is going to 
be a lot of advocacy, particularly on behalf of S. 2828, the Ukraine 
Freedom Support Act. This is a bill that was introduced in the Senate 
before the break by Senators Menendez and Corker. And I'm proud that my 
chairman--our chairman of the Helsinki Commission, Senator Ben Cardin, 
is an original cosponsor, along with Senators Ed Markey and Rob 
Portman. So it's a bipartisan bill.
    It garnered the support of all 18 members of the Senate Foreign 
Relations Committee. This was on the day that President Poroshenko 
appeared and spoke before Congress, but it was also the day that the 
Senate left before the break. We'll see if, during this lame duck 
session, this bill will pass or not. It remains to be seen. It's 
possible, but I think it's far from certain, for a lot of reasons.
    I'm saying this as one who hopes it passes during the lame duck 
session--there will be opportunities in the next Congress, because it's 
important to send a message to Moscow. The bill of course, as you know, 
calls for defensive military aid--some call it lethal military 
assistance--as well as increasing and strengthening sanctions. That's 
something that, even if we look at the events of recent days, in terms 
of Moscow's continued aggression in southeastern Ukraine, it really 
calls for more action by the United States and the international 
community.
    Anybody else have a question? Oh, Paul. OK.
    Questioner. Hi. I'm Paul Massaro. I am a staff associate of the 
U.S. Helsinki Commission. And thank you all very much for your 
comments. I guess I've gotten from the comments that it seems like 
building the new governing coalition following the election has been 
quite difficult at this point. I wanted to see if maybe you could 
elaborate on some of the points of contention currently in the 
coalition-building process, and I guess also maybe what kind of 
coalition we could end up with in Ukraine. Thank you.
    Mr. Nix. You go first.
    Ms. Aivazovska. OK. I think that we will see a coalition from four 
political parties: Petro Poroshenko, People's Front, Samopomich, 
Lyashko's party, and maybe with Batkivshchyna. So four or five, because 
all of these political parties are going to prepare their own coalition 
agreement. And we know some points of these agreement. It is very good 
as for me because it looks like a plan because before we never had such 
plan for political parties in our parliament, unfortunately even some 
calendar of our draft laws about the main objectives for parliament, or 
some fraction and so on.
    I don't think so that we really had a big problem with this 
coalition, but we will have a problem with opposition, because our 
parliament needs to have a really qualitative and effective and active 
opposition because these political parties which organized a coalition 
will be much more progressive if they will have great opposition in the 
parliament. Unfortunately, our oppositional bloc will not such great 
opposition for this coalition.
    But the main problem now, it is a discussion about future 
government, because questions about prime minister and ministers in 
this government are on the closed doors in the presidential 
administration, as usually. Some of the political parties, which are 
the part which is part of this new coalition, publicly said that they 
don't want to be part of government, but unfortunately in a real 
discussion we heard other messages from all of them. That's why our 
president wants to--to to have a main bloc in the government, as we 
know, but the results of people's bloc show that president didn't won 
this election--I'm talking about national districts. Of course, 
presidential party get many mandates in single-mandate districts, but 
politically, emotionally, they didn't win this campaign.
    Mr. Nix. In response to your basic question, what are the 
particulars of these current discussions in the formation of 
government, no different than any other. These are discussions about 
primarily the prime minister and other positions in government.
    Let's remember, it's important to note that Ukraine is now back to 
the constitution of 2004, where the prime minister wields tremendous 
power, but under the current circumstances, in his position as 
commander in chief of the armed forces, the president continues to 
wield considerable power because the war is central to just about 
everything that the new government will undertake.
    The prime minister's position is very important because of the fact 
that Ukraine is at war, the president also has important powers. So 
this is driving a lot of the discussion. Obviously, Mr. Yatsenyuk and 
his bloc feel that he should continue as prime minister. I think it's a 
fair guess that he probably will. My prediction is that the government 
will be formed in the next two to two-and-a-half weeks.
    The pro-European parties have a lot in Parliament, they will form a 
coalition. It will be pro-European. A lot of the discussions are some 
of the minor ministries and there's also discussion about what should 
be the subject that the primary and first areas of reform, but I think 
there's basic agreement. Again, all you have to do is look at the 
polling data is what the people expect. The people expect peace and 
security, some solution to the military aggression in the east, and 
they expect quick government action on the creation of jobs and 
combating corruption.
    Those are the main issues, that's what the people want, and these 
newly elected members of Parliament and these new ministers, whoever 
they are, are aware of that, and they know that they're going to be 
watched and judged in the next several months as to whether they 
perform on that. If they don't, you might see people back in the 
streets again.
    I think this government is going to come up with a coalition, it's 
going to come up with an agenda and it's going to move Ukraine forward, 
but again, as I said in my opening statement, Ukraine can't do it by 
itself. It needs a lot of assistance from the West.
    Mr. Deychakiwsky. OK, thank you. We have time for one more 
question. Going once, going--go.
    Questioner. Hi, my name is William McConnell. I work in the office 
of Congresswoman Lois Frankel, and I was at the State Department before 
this working for Assistant Secretary Nuland right about the time that 
Director Kostelancik left.
    My question concerns mostly how the new coalition, will that change 
the dynamic surrounding the association agreement with the European 
Union? Will certain agreements, especially with Russia, be revisited in 
your opinion? And will that change?
    Mr. Weise. I will say very briefly that I think the electoral 
outcome, as it were, the outcomes, I think, was also, you know, a stamp 
of legitimacy for the pro-Europe for some of these agreements that had 
already been made. Now as to whether or not, you know, this moves 
forward, some of the delays that had been instituted on that agreement 
at the last minute, I really don't know.
    It is conceivable because it also seems like many other deals that 
were made are sort of now off the table. They're not officially off the 
table but, you know, things have been violated, and so that gives the 
president, the grounds to go back to the table and look to maybe even 
implement some of those agreements even at a more rapid schedule.
    Mr. Deychakiwsky. So you're saying we don't know. Nobody knows, but 
that was a good answer.
    First, I want to thank the audience. This is actually, you may or 
may not know quite a Ukraine day. It turns out, according a count of a 
colleague of mine, there are seven events or meetings on Ukraine today 
in Washington. That testifies to the interest and attention that's 
being garnered to Ukraine and the Ukrainian crisis these days.
    I want to thank our panelists for really excellent presentations. 
Insightful, interesting and a great discussion. More importantly for 
all the work that you and your organizations are doing to consolidate 
democracy in Ukraine, something which clearly is not only in Ukraine's 
interest but as we've increasingly seen with events that have taken 
place over the course of the last year, very much in the interests of 
the international global order and international peace and security.
    I have to make a commercial announcement. The commission will be 
holding a hearing on corruption next Wednesday. You could get the 
information on our website, www.csce.gov, and that hearing will also 
have a Ukraine component.
    Thank you again for the presentations, and thank you for coming. 
The briefing's adjourned.

                                  
  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
